12 Eliot St. | Cambridge, MA 02138

January 27, 2020
Via Electronic Filing and Overnight Mail
Mr. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

No. 19-465, Chiafalo v. Washington
No. 19-518, Colorado Dep’t of State v. Baca
Blanket consent to amicus curiae briefs

Dear Clerk Harris:
Per Supreme Court Rule 37.3(a), consolidated petitioners in these
cases—that is, petitioners in 19-465 and respondents in 19-518—grant
blanket consent to the filing of amicus curiae briefs in support of either party
or neither party in these consolidated cases.
Sincerely yours,

L. Lawrence Lessig
Counsel of Record

cc:

Noah Purcell, counsel for Respondents in 19-465
noah.purcell@atg.wa.gov
Eric Olson, counsel for Petitioners in 19-518
eric.olson@coag.gov

